APPENDIX A-l
i

[

'n

f

3:09-cr-30070-Jfec5-BGC # 23
%AO 245B

c

Page 1 of 6

(Rev. 12/03) Judgment in a Criminal Case
Sheet!

Monday, 26 July, 2010 02:23:04 PM
CJlerk, U.ii. UistiicL Uuult, ILCJU

United States District Court
Illinois

District of

Central

JUDGMENT IN A CRIMINAL CASE

UNITED STATES OF AMERICA
V.

Case Number: 09-30070-001

LARRY STARKS

USM Number: 17008-026

Bruce Locher
-

Defendant’s Attorney

ft

THE DEFENDANT:
^ pleaded guilty to count(s)

J___

JVL g,8-2010-----------

□ pleaded nolo contendere to count(s)
which was accepted by the court.
□ was found guilty on count(s)
after a plea of not guilty.

CLERK OF THE COURT

__

.

CENTRAL DISTRICT OF ILLINOIS

The defendant is adjudicated guilty of these offenses:
Title & Section
21 §§ 841(a)(1) and (b)(1)(B)

Nature of Offense
Attempt to Manufacture 5 or More Grams of a Mixture or Substance
containing Methamphetamine

6

The defendant is sentenced as provided in pages 2 through
the* Sentencing Reform Act of 1984..
□ The defendant has been found not guilty on count(s)

.□ Count(s)

□ is

Offense Ended

Count

6/30/2009

1

of this judgment. The sentence is imposed pursuant to

____
□ are dismissed on.the motion of the United States.

I 1ms ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

7/23/2010

.

Date of Imposttjoii of Judgment

s/ Jeanne E. Scott
SignaturejwJudge
y

//

JEANNE E. SCOTT,

U.S. DISTRICT JUDGE

Name and Tithfsf Judge

iJm

1

-20/ri
/

3:09-cr-30070-jfcS-BGC #23
AO 2'-5B

c

Page 2 of 6

(Rsv. 12/03) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

.

2

of

DEFENDANT: LARRY STARKS
CASE NUMBER: 09-30070-001

. IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of:

236 months

The court: makes the following recommendations to the Bureau of Prisons:

1. That the defendant be placed in a facility with Residential Drug Abuse Program and
Educational and Vocational opportunities.
^ The defendant is remanded to the custody of the United States Marshal.
□ The defendant shall surrender to the United States Marshal for this district:

□ at
□

□ a.m.

□ p.m.

on

as notified by the United States Marshal.

□ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□

before

p.m. on __________________________

□

as notified by the United States Marshal.

□

as notified by the Probation or Pretrial Services Office.

.

RETURN
I have executed this judgment as follows:

to

Defendant delivered on
a

, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

.6

3:09-cr-30070-J£6-BGC # 23
AO 245B

Page 3 of 6

c.

(Rev. 12/03) Judgment in a Criminal Case
Sheet 3 — Supervised Release
Judgment—Page

‘4

of

t>

DEFENDANT: LARRY STARKS
CASE NUMBER: 09-30070-001

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of:

8 years
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release from the
custody of th e B ureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a controlled
substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and two periodic drug tests
thereafter, as determined by the court.
□ The above drag testing condition is suspended, based on the court’s determination that the defendant poses a low risk of
future substance abuse. (Check, if applicable.)
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon, (Check, if applicable.)
The defendant shall cooperate in the collection of DNA as directed by the probation officer. (Check, if appiicable.)
□

The defendant shall register with the state sex offender registration agency in the state where the defendant resides, works, or is a
student, as directed by the probation officer. (Check, if applicable.)

□

The defendant shall participate in an approved program for domestic violence. (Check, if applicable.)

If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance with the
Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional conditions
on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1)

the defendant shall not leave the judicial district without the permission of the court or probation officer;

2)

the defendant shall report to the probation officer and shall submit a truthful and complete written report within the first five days of
each month;
the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;

3)
4)
5)
6)

the defendant shall support his or her dependents and meet other family responsibilities;
the defendant shall work regularly at a lawful occupation, unless excused by the probation, officer for schooling, training, or other
acceptable reasons;
the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;

7)

tire defendant shall refrain from| [excessive fxl any use of alcohol, and shall not purchase, possess, use, distribute, or administer
any controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;

8)

(he defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;

9)

the defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a
felony, unless granted permission to do so by the probation officer;

10)

the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view of the probation officer;
the defendant shall notify the probation officer within severity-two hours of being arrested or questioned by a law enforcement officer;

11)
12)
13)

the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and
as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s criminal
record or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the
defendant’s compliance with such notification requirement.

3:09-cr-30070-jkS-BGC # 23
A0245B

(Rev. 12/03)) Judgment in a Criminal Case .
Sheet 3C'—Supervised Release

Page 4 of 6

c
Judgment—Page

4

of

fi

DEFENDANT: LARRY STARKS
CASE NUMBER: 09-30070-001

SPECIAL CONDITIONS OF SUPERVISION
1. The defendant shall refrain from any use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance, or any paraphernalia related to any controlled substance, except as prescribed by a physician. He
shall, at the direction of the Probation Office, participate in a program for substance abuse treatment including not more
than six tests per month to determine whether he has used controlled substances and/or alcohol. He shall pay for these
services as directed by the probation officer.
2. The defendant shall not own, purchase, or possess a firearm, ammunition, or other dangerous weapon.
3. The defendant shall participate in a program of job training or employment counseling as directed by the probation
officer.
4. If the defendant is unemployed after the first 60 days of supervision, or if unemployed for 60 days after termination or
lay-off from employment, he shall perform at least 20 hours of community service work per week at the direction of and in
the discretion of the U. S. Probation Office until gainfully employed.

r

AO 2458

3:p9-cr-3Q070-j£S-BGC # 23

Page 5 of 6

(Rev. 12/03) Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties

C
5

Judgment — Page

of

6

DEFENDANT: LARRY STARKS
CASE NUMBER: 09-30070-001

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

TOTALS

Restitution

Fine

Assessment
s 100.00

$

$

(
. An Amended Judgment in a Criminal Case (AO 245C) will be entered

U The determination of restitution is deferred until
after such determination.

□ The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial pavment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfedera! victims must be paid
before the United States is paid.
Total Loss*

Name of Payee

TOTALS

0.00

$

$

Restitution Ordered Priority or Percentage

0.00

□

Restitution amount ordered pursuant to plea agreement §

□

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 361.2(f), All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

□

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
□ the interest requirement is waived for the
□ the interest requirement for the

□ fine

□ fine

□ restitution.

□ restitution is modified as follows:

* Findings for the total amount oflosses are required under Chapters 109A, 110,110A, and 113A ofTitle 18 for offenses committed on or after
September 13,1994, but before April 23,1996.

r

AO 245 B

3:09-cr-3Q07Q-JEcS-BGC # 23

Page
6 of 6
w

(Rev. 12/03) Judgment in a Criminal Case
Sheet 6 — Schedule of Payments

c
Judgment — Page

6

of

DEFENDANT: LARRY STARKS
CASE NUMBER: 09-30070-001

a

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay. payment of the total criminal monetary penalties are due as follows:
A

gf Lump sum payment of $
□
□

not later than
in accordance

100.00

□ C.

due immediately, balance due

□ D,

□

or
E, or

□ F below; or
□ C,

□ D, or

□ F below); or

B

□ Payment: to begin immediately (may be combined with

C

(e.g., weekly, monthly, quarterly) installments of $
over a period of
□ Payment in equal
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g,, months or years), to commence

D

(e.g., weekly, monthly, quarterly) installments of $
over a period of
□ Payment in equal
(e.g,, 30 or 60 days) after release from imprisonment to a
________ _ (e.g., months or years), to commence ._,
term of supervision; or

E

(e.g.. 30 or 60 days) after release from
□ Payment during the term of supervised release v/ill commence within
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

□ Special instructions regarding the payment of criminal monetary penalties:

Un less the court has expressly ordered otherwise, if this judgment imposes imprisonment^a^mrat of criminal monetary penalties is due during
Responsibility Program, are made to the clerk of the court!
1
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

□

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

□

The defendant shall pay the cost of prosecution.

□

The defendant shall pay the following court cost(s):

□

The defendant shall forfeit the defendant's interest in the following property to the United States:

Payments shall beapplied in the following order: (F) assessment, (2)^ restitution principal, (3) restitutionmterest, (4) fine principal,

